<html>
<title> - OPERATIONAL EXPERIENCE UNDER THE 2001 RAILROAD RETIREMENT REFORM LAW</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
  OPERATIONAL EXPERIENCE UNDER THE 2001 RAILROAD RETIREMENT REFORM LAW

=======================================================================

                                (109-71)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                               RAILROADS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 10, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
28-286                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)



                       SUBCOMMITTEE ON RAILROADS

                  STEVEN C. LaTOURETTE, Ohio, Chairman

THOMAS E. PETRI, Wisconsin           CORRINE BROWN, Florida
SHERWOOD L. BOEHLERT, New York       NICK J. RAHALL II, West Virginia
JOHN L. MICA, Florida                JERROLD NADLER, New York
SPENCER BACHUS, Alabama              BOB FILNER, California
JERRY MORAN, Kansas                  ELIJAH E. CUMMINGS, Maryland
GARY G. MILLER, California           EARL BLUMENAUER, Oregon
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
TODD RUSSELL PLATTS, Pennsylvania    JULIA CARSON, Indiana
SAM GRAVES, Missouri                 PETER A. DeFAZIO, Oregon
JON PORTER, Nevada                   JERRY F. COSTELLO, Illinois
TOM OSBORNE, Nebraska                EDDIE BERNICE JOHNSON, Texas
MICHAEL E. SODREL, Indiana           JAMES L. OBERSTAR, Minnesota
LYNN A. WESTMORELND, Georgia, Vice-  JOHN BARROW, Georgia
Chair                                  (ex officio)
DON YOUNG, Alaska
  (ex officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Hamberger, Edward, President, Association of American Railroads.     9
 Hixon, James A., Trustee, National Railroad Retirement 
  Investment Trust...............................................     9
 Parker, Joel, Trustee, National Railroad Retirement Investment 
  Trust..........................................................     9
 Scardelletti, Robert, President, Transportation Communications 
  International Union............................................     9
 Schwartz, Hon. Michael S., Chairman, Railroad Retirement Board, 
  accompanied by V.M. Speakman, Labor Member, Railroad Retirement 
  Board, Jerome Kever, Management Member, Railroad Retirement 
  Board, Steven Bartholow, General Counsel, Railroad Retirement 
  Board, Kenneth Boehne, Chief Financial Officer, Railroad 
  Retirement Board, and Frank Buzzi, Chief Actuary, Railroad 
  Retirement Board...............................................     3

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Brown, Hon. Corrine, of Florida..................................    22
Costello, Hon. Jerry F., of Illinois.............................    25
Cummings, Hon. Elijah E., of Maryland............................    27
Johnson, Hon. Eddie Bernice, of Texas............................    45
Oberstar, James L. of Minnesota..................................    49
Young, Hon. Don, of Alaska.......................................    66

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Hamberger, Edward...............................................    32
 Hixon, James A..................................................    42
 Parker, Joel....................................................    52
 Scardelletti, Robert............................................    56
 Schwartz, Hon. Michael S........................................    58

                       SUBMISSION FOR THE RECORD

 Schwartz, Hon. Michael S., Chairman, Railroad Retirement Board, 
  accompanied by V.M. Speakman, Labor Member, Railroad Retirement 
  Board, Jerome Kever, Management Member, Railroad Retirement 
  Board, letter concerning the Widow(er)s' Intitial Minimum 
  Benefit Amount (WIMA), June 9, 2006............................    63


  OPERATIONAL EXPERIENCE UNDER THE 2001 RAILROAD RETIREMENT REFORM LAW

                              ----------                              


                        Wednesday, May 10, 2006,

        House of Representatives, Subcommittee on 
            Railroads, Committee on Transportation and 
            Infrastructure, Washington, D.C.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2167, Rayburn House Office Building, the Hon. Steven C. 
LaTourette [Chairman of the subcommittee] presiding.
    Mr. LaTourette. The Subcommittee will come to order. Good 
afternoon, I want to welcome you all to this afternoon's 
hearing about the Operational Experience Under the 2001 
Railroad Retirement Reform Law.
    In 1998, this Subcommittee, under chairman Jack Quinn, held 
a hearing about the need to reform our Nation's railroad 
retirement system. At that time, the system was headed for a 
crisis. Due to the severe downsizing of the industry, fewer and 
fewer employees were paying into the railroad retirement 
system. Meanwhile, the number of retirees and surviving spouses 
continued to increase.
    Fortunately, after years of effort by rail labor, 
management and members on both sides of this Committee, the 
Railroad Retirement and Survivors' Improvement Act of 2001 was 
signed into law. Enactment of this legislation was a great 
victory for railroad workers and their families as well as the 
railroads themselves. The 2001 legislation reduced the 
retirement age from 62 to 60, provided enhanced Tier II 
benefits for retirees and their surviving spouses, and reduced 
taxes on current railroad employees. This was achieved by 
allowing the National Railroad Retirement Investment Trust to 
invest in a diversified portfolio rather than exclusively in 
low yield Government securities. In what is truly a pleasant 
surprise, the investment trust has performed far better than 
anyone expected back in 2001. The portfolio has grown 
remarkably, and payroll taxes have actually declined.
    Today, I am looking forward to hearing more about the 
success of the National Railroad Retirement Investment Trust as 
well as any continuing issues faced by the Railroad Retirement 
Board, rail labor, and management.
    Before yielding to my distinguished Ranking Member Ms. 
Brown, I want to ask unanimous consent to allow 30 days for 
members to revise and extend their remarks and to permit the 
submission of additional statements and materials by members 
and also witnesses. Without objection, so ordered.
    It is now my pleasure to yield to Corrine Brown of Florida, 
our distinguished Ranking Member, for any observations she 
would choose to make.
    Ms. Brown. Thank you, Mr. Chairman, for hosting this 
meeting. It is nice to have a hearing where all of the 
witnesses have good news for us. Thank you.
    I believe that the Railroad Retirement and Survivors' 
Improvement Act of 2001 was a resounding success. It improved 
benefits to men and women who work on our Nation's railroads 
and the 634,000 retirees and survivors of Retired Railroad 
Workers. It significantly reduced Tier II taxes for railroad 
and for railroad workers for the first time in 2005 from 4.9 
percent to 4.4 percent.
    The Act also created the National Railroad Retirement 
Investment Trust which has been a tremendous success. The net 
value of the trust management assets have soared up to $28.9 
billion as of March, 2006, representing an increase of over $10 
billion, that is with a B, above the net book value of assets 
transferred to the trust for investment in 2001.
    In other words, the 2001 Railroad Retirement Reform Law was 
a win/win situation for everyone: for the railroad, for the 
railroad workers, for the railroad retirees and survivors, and 
for former and current members of this Subcommittee who worked 
so hard to create this program.
    I welcome the witnesses here today and look forward to 
hearing more about the implementation of the 2001 Reform Act. 
Thank you, Mr. Chairman.
    Mr. LaTourette. I thank the gentlelady very much.
    Mr. Boswell, any remarks you would like to make?
    Mr. Boswell. No, thank you, Mr. Chairman.
    Mr. LaTourette. OK.
    With that, it is my pleasure to welcome the first panel 
today. The first panel, despite its appearance, actually 
contains one witness and a lot of friends. So we are pleased to 
have today with us the Honorable Michael Schwartz who is the 
Chairman of the Railroad Retirement Board. He is accompanied 
today by Mr. V.M. Speakman who is the Labor Member for the 
Railroad Retirement Board, Mr. Jerome Kever who is a Management 
Member of the Railroad Retirement Board, Steven Bartholow who 
is the General Counsel for the Railroad Retirement Board, Mr. 
Kenneth Boehne who is the Chief Financial Officer for the 
Railroad Retirement Board, and Mr. Frank Buzzi who is the Chief 
Actuary for the Railroad Retirement Board.
    Chairman Schwartz, we thank you for coming. We thank you 
for bringing all your friends with you today. We look very much 
forward to your testimony.

   TESTIMONY OF HON. MICHAEL S. SCHWARTZ, CHAIRMAN, RAILROAD 
RETIREMENT BOARD, ACCOMPANIED BY: V.M. SPEAKMAN, LABOR MEMBER, 
  RAILROAD RETIREMENT BOARD; JEROME KEVER, MANAGEMENT MEMBER, 
 RAILROAD RETIREMENT BOARD; STEVEN BARTHOLOW, GENERAL COUNSEL, 
  RAILROAD RETIREMENT BOARD; KENNETH BOEHNE, CHIEF FINANCIAL 
OFFICER, RAILROAD RETIREMENT BOARD; FRANK BUZZI, CHIEF ACTUARY, 
                   RAILROAD RETIREMENT BOARD

    Mr. Schwartz. Thank you. Good afternoon, Chairman 
LaTourette, Ranking Member Brown, and distinguished members of 
the Committee. I am Michael Schwartz, and I am the Chairman of 
the Railroad Retirement Board. It is indeed a pleasure to 
appear before you today to testify on behalf of the Railroad 
Retirement Board concerning our experience under the Railroad 
Retirement and Survivors' Improvement Act. I request that my 
statement be inserted in the record.
    As you know, the Railroad Retirement and Survivors' 
Improvement Act of 2001 originated in this Committee, and it 
made a number of changes in railroad retirement benefits and in 
the financing of the railroad retirement program. The Railroad 
Retirement and Survivors' Improvement Act of 2001 was a product 
of an agreement between rail labor and rail management.
    On the benefit side, the 2001 Act reduced the minimum 
retirement age for full benefits for employees with 30 years of 
service from age 62 to age 60. Another change was the 
elimination of the so-called railroad retirement maximum, which 
had imposed a cap on the combined benefits of an employee and 
the employee's spouse. The Act added a new minimum initial 
benefit amount for widow and widowers, so that the amount of 
the benefit payable when a widow's or widower's annuity is 
awarded is equal to what the employee received prior to his or 
her death. Another change on the benefit side was a reduction 
in the number of years needed to be eligible for Tier II 
railroad retirement benefits. Tier II benefits are now 
available to employees who have five years of railroad service 
after 1995. These changes are all fully operational.
    In addition to the benefit changes I just mentioned, the 
Railroad Retirement and Survivors' Improvement Act made 
significant and far reaching changes in the financing of 
railroad retirement benefits. The Act called for the creation 
of a new entity, the National Railroad Retirement Investment 
Trust, to handle investment of railroad retirement funds. The 
Trust is not a Federal Agency or instrumentality; it is 
separate and apart from the Railroad Retirement Board.
    Prior to the 2001 legislation, railroad retirement funds 
were invested only in Government securities or certain 
Government-backed securities. The 2001 law changed this by 
authorizing the Trust to invest railroad retirement funds in a 
wide array of investments including stocks and bonds as well as 
Government securities.
    In addition to the investment changes, the Railroad 
Retirement and Survivors' Improvement Act of 2001 substituted 
for the flat tax rates in prior law, a new tax ratchet 
mechanism for setting the Tier II tax rate for employees and 
employers. Under the tax ratchet, Tier II tax rates for 
employers and employees can increase or decrease depending on 
the account benefits ratio. The account benefits ratio is 
determined by comparing the market value of railroad retirement 
assets to benefit payments. Thus, the tax rate is adjustable to 
meet financing needs of the railroad retirement system.
    Almost immediately after President Bush signed the Railroad 
Retirement and Survivors' Improvement Act into law, steps were 
initiated to form the National Railroad Retirement Investment 
Trust. The Trust is comprised of seven trustees. Three trustees 
represent the interest of rail management; three represent the 
interest of rail employees; the seventh is an independent 
member of the Board of Trustees and is selected by a majority 
of the other six trustees. Trustees representing railroad 
employees and railroad management were appointed and first met 
on February 1st, 2002. The original trustees, as well as the 
trustees who have been appointed after the Trust was formed, 
all have had strong backgrounds in investment and pension plan 
management as required by the statute.
    The first transfer for the investment occurred in 
September, 2002. For several months thereafter, additional 
transfers of significant amounts were made until a total of 
$21.3 billion had been transferred to the Trust. Initially, the 
Trust limited its investments to index funds, but as the 
Trust's staff has grown, the Trust has moved funds into a 
combination of index funds and actively managed investments 
handled by an increasing number of investment managers. Today 
the Board of Trustees and the Trust's professional staff are 
responsible for the investment of $28.9 billion.
    Although the Railroad Retirement and Survivors' Improvement 
Act makes it clear the Railroad Retirement Board and the 
National Railroad Retirement Investment Trust are separate 
entities, the responsibilities of the two organizations are 
such that the Board and the Trust must work together in order 
to serve the needs of the plan participants and stakeholders. 
Today, I am pleased to report that the Board and the Trust have 
worked closely from the inception of the Trust and that we are 
accomplishing our respective responsibilities under the Act.
    The three members of the Railroad Retirement Board meet at 
least twice a year with the Trust, and the Railroad Retirement 
Board's General Counsel meets on a frequent basis with the 
Counsel to the Trust and the Trust Chief Investment Officer to 
discuss issues of mutual concern.
    The Railroad Retirement Board, the Trust, the Office of 
Management and Budget, and the Department of the Treasury are 
all parties to a Memorandum of Understanding under which the 
Board receives monthly reports from the Trust showing the 
market valuation of the Trust portfolio. Moreover, the Trust 
provides the Board with copies of its annual management report 
to Congress showing details of the Trust's operations for the 
previous fiscal year. The Railroad Retirement Board receives 
quarterly updates of the annual report from the Trust. 
Information about the Trust, including an annual management 
report and quarterly updates, is posted to the Railroad 
Retirement Board's web site and is available for public review.
    Since the inception of the Trust, the market value of the 
Trust's portfolio has increased significantly. As I noted 
earlier, the Railroad Retirement Tax Act was amended by the 
2001 law to provide a tax ratchet mechanism for setting Tier II 
tax rates for employers and employees. Before the tax ratchet 
became effective in 2004, the 2001 Act had already reduced the 
Tier II tax rate on employers from 16.1 percent in 2001 to 15.6 
percent and 14.2 percent in 2002 and 2003, respectively.
    When the tax ratchet took effect in 2004, the employer tax 
rate was further reduced to 13.1 percent, and in 2005, both the 
employer and the employee Tier II tax rates were reduced. In 
2005, the employer tax rate declined to 12.6 percent and the 
employee tax rate declined from 4.9 to 4.4 percent. Tax rates 
for 2006 are the same as 2005. These reductions in the Tier II 
tax rates for both employers and employees were almost entirely 
the result of good investment performance over the past few 
years.
    In closing, I am pleased to say that, in view of the 
Railroad Retirement Board, the Railroad Retirement and 
Survivors' Improvement Act has been very successful and that 
the goals sought by the legislation are being achieved. We 
would be happy to answer any questions at this time.
    Mr. LaTourette. Well, Chairman Schwartz, thank you very 
much. As Ms. Brown said, it is rare that we have a hearing 
where it is all good news all the time. Certainly, your 
testimony and your report today is good news.
    Just a housekeeping matter, we have a Majority Leader here. 
His name is Boehner. I think, Mr. Boehne, I said your name was 
Boehne, and I have been told that it is Boehne. And so, I 
apologize for that. I just took the R off of Boehner and made 
you Mr. Boehne. But, just so the record is clear, welcome.
    Again, Chairman Schwartz, thank you for your testimony and 
bringing everybody with you today.
    I want to begin where you ended, I guess, and that is the 
tax rate and commend you and the Board for continuing to reduce 
the tax rate on both the employer and the employee. As you sort 
of pull out your crystal ball, do you see that as being a trend 
that you can continue, thanks to the good management skills 
that you are exercising over this Trust?
    Mr. Schwartz. Yes, and that is the way the ratchet system 
was set up. As long as the investments continue to be strong, 
we will be able to lower the rate.
    Mr. LaTourette. Great. There was a big discussion and a 
little dust up here last year and the year before over social 
security, and everybody becomes concerned about the impact of 
the pending retirement of the baby boomers on our middle class 
entitlement programs.
    Mr. Schwartz. Sure.
    Mr. LaTourette. I am just wondering if, after the 2001 
legislation, have you and your actuaries have taken a look at 
what the retirement of the baby boomer generation does to what 
you are currently doing?
    Mr. Schwartz. Yes, we have a 75 year projection. That is 
all we get, just 75 years out. We see no cash flow problems in 
the next 75 years because of these good investments and because 
of the employment.
    Mr. LaTourette. That is unbelievable.
    Earlier this year, this Committee, I think with the support 
of the Board or at least the Board was supportive, reported 
H.R. 5074 which was legislation that went back and took a look 
at the 2001 Act and put the Treasury back in charge of the 
payment of Tier II benefits. That was, at the time, I think it 
was one of those that everybody thought it would be a good idea 
and was going to save money, I think. I don't have my notes in 
front of me from that hearing, but it seemed to me that it was 
costing $13 million more than we anticipated it costing.
    I assume that the Board continues to be supportive of the 
legislation, one; and two, at this moment in time, are there 
any other items like that, that you think the Board needs to 
bring before this Committee for fine tuning the 2001 
legislation?
    Mr. Schwartz. First of all, we would like to thank the 
Committee for doing that and thank you for your help. There is 
nothing at this time, other than that, that we need.
    Mr. LaTourette. That is excellent. That makes our work a 
lot easier.
    [Laughter.]
    Mr. LaTourette. I think my last question to you is, in your 
latest management report to Congress, could you outline sort of 
the major issues that you brought up in that report? Again, I 
heard you just say that you look out over 75 years. Is your 
prognosis for this year to be a good year, and if not, do you 
have any significant issues or concerns that you think are on 
the horizon in the short term?
    Mr. Schwartz. Well, it is kind of interesting that in March 
of 2002, the employment in the railroad industry was 229,000 
people. The actives are now 237,000 people. There has been 
hiring. We think we do anticipate through the years for there 
to be somewhat of a decline, but I can tell you that our 
actuary is telling me that he is looking at those numbers, and 
he may be even adjusting those hiring numbers a little bit to 
maybe show a little less of a decline in hiring than there has 
been projected in the future.
    So I would say that, as long as the hiring stays around 
where it is or drops just a little bit each year, as long as 
our investments continue to bring in a good return like they 
are, we don't see any problem with the fund for the next 75 
years.
    Mr. LaTourette. Again, I apologize; I should know this, the 
mix. When you took the 2001 Act and went away from solely low 
yield Federal securities, what is the current mix of your 
portfolio?
    Mr. Schwartz. I think we would need the Trust to testify on 
that exactly at this point. When the Trust first went into it, 
of course, they had U.S. equities, non-U.S. equities, fixed, 
private, and I think the current mix, I would prefer them to 
testify on that.
    Mr. LaTourette. OK, well, I thank you very much. Again, I 
thank you and the Board and everybody associated with the Board 
for this good news. I think if all of the pieces of legislation 
that we have passed around here bore the same good fruits that 
you have put into effect, it would be a much happier place.
    Mr. Schwartz. Great, thank you.
    Mr. LaTourette. Thank you very much.
    Ms. Brown?
    Ms. Brown. Thank you.
    Many members on this Subcommittee have heard from widows in 
their Congressional District about a serious problem with how 
their railroad retirement pensions interact with their social 
security benefits. From what I understand, these widows are not 
getting cost of living increases in their railroad retirement 
pensions, even though the cost of living continues to escalate 
each year. Why is this and what can be done to resolve this 
situation?
    Mr. Schwartz. Frank, do you want to talk on that?
    Ms. Brown. Anyone else can feel like they can participate.
    Mr. Buzzi. The minimum widow's benefit establishes an 
initial benefit level, and that level is fixed and does not 
have cost of living increases. However, the benefit under the 
old law is still calculated as it was previously. Then the 
widow receives the larger of those two. So, in effect, for 
several years, the widow will receive no cost of living 
increase, and thereafter, as the benefit under the old law 
exceeds the guarantee, she will, he or she will.
    Ms. Brown. OK, now do that again because I didn't quite get 
it.
    Mr. Buzzi. The widow's benefit is comprised of a Tier I and 
Tier II portion. The Tier I portion is equal to 100 percent of 
the employee's Tier I. The Tier II portion is 50 percent of the 
employee's Tier II. However, the guaranteed amount is 100 
percent of the employee's Tier II. The 100 percent of Tier I 
plus 100 percent of Tier II is the guarantee amount that the 
widow is guaranteed to receive.
    The old law benefit was 100 percent of Tier I plus 50 
percent of Tier II. The old law amounts received cost of living 
increases. The guarantee amount does not. So the widow receives 
the larger of the two, the initially calculated guaranteed 
amount based on 100 percent of Tier II or the old law amount, 
whichever is greater. So, in effect, the widow will receive no 
cost of living increases for several years under total annuity. 
But thereafter, as the old law amount exceeds the guarantee 
amount, the widow will receive cost of living increases.
    Ms. Brown. OK, but the widow is getting more under this.
    Mr. Schwartz. Yes.
    Mr. Buzzi. Yes, absolutely.
    Ms. Brown. Just one other follow-up: What recourse does a 
retiree have if the Railroad Retirement Board staff misinforms 
him or her about the qualification requirement to obtain full 
pension and survivor benefits, and it is a mistake on the part 
of the staffer? I hope that was in writing because, basically, 
if it is not you have just one person's word over another.
    Mr. Bartholow. Unfortunately, mistakes are made but not all 
that often by our people. We have a very, very good work force. 
As you can see, most of us have been around a while, and we 
know the program. There are mistakes occasionally made, 
however. We do, obviously, look into situations, but if there 
is a mistake that is made and bad information is given, 
unfortunately, we can't change the law. The law does, in fact, 
control the amount of the benefit, and that is the amount 
payable.
    As I said, it is unfortunate, but those things do happen, 
and they happen not only in our program but they happen in 
other programs. That is the law that is applicable under all 
Government pension programs.
    Ms. Brown. OK, well, thank you, Mr. Chairman.
    Mr. LaTourette. I thank the gentlelady very much. I just 
have one more question, and then if the gentlelady has another 
question, I will yield back to her.
    Something I forgot to ask earlier, as members of Congress, 
as Federal employees, we have something called the thrift 
savings plan that we can participate in. Given the great record 
that you have accumulated since the passage of the 2001 Act, is 
it possible for an employee to take advantage of this great 
performance by contributing more than the minimum amount at 
this moment in time to receive additional benefits at the end?
    Mr. Schwartz. They are set. It is set in statute that is 
what it would be. It would be the Tier II would be 4.4 percent 
for an employee.
    Mr. LaTourette. So they don't. If an employee said, you 
know what, boy, I would really like to put in some more dough, 
he does not at this moment in time have the opportunity to do 
that.
    Mr. Schwartz. Right, that is correct.
    Mr. LaTourette. Let me ask you this. Do you think that it 
is a good idea if we looked at that since you are doing such a 
bang-up job, if we made that an option for railroad employees 
in the future?
    Mr. Schwartz. Well, the way I look at it is if this 
Committee wants to look at something, we certainly would take a 
look at that as well.
    Mr. LaTourette. Good, thank you. Do you have any more 
questions?
    Well, Chairman Schwartz, I want to thank you and your 
fellow Board members and everyone else associated from the 
Board for not only coming and sharing your story and testimony 
today but also letting us share in your success. Thank you very 
much.
    Mr. Schwartz. Thank you.
    Mr. LaTourette. Thank you.
    It is now our pleasure to welcome our second panel this 
afternoon. We are going to be joined by Mr. James Hixon who is 
a trustee with the National Retirement Investment Trust, Mr. 
Joel Parker, another trustee with the National Railroad 
Retirement Investment Trust, Mr. Robert Scardelletti who is the 
President of the Transportation Communications International 
Union, and for a return engagement, Mr. Edward Hamberger who is 
the President of the Association of American Railroads.
    I want to thank all of you for coming today, and we look 
forward to hearing from you.
    Mr. Hixon, you are first.

    TESTIMONY OF JAMES A. HIXON, TRUSTEE, NATIONAL RAILROAD 
  RETIREMENT INVESTMENT TRUST; JOEL PARKER, TRUSTEE, NATIONAL 
  RAILROAD RETIREMENT INVESTMENT TRUST; ROBERT SCARDELLETTI, 
 PRESIDENT, TRANSPORTATION COMMUNICATIONS INTERNATIONAL UNION; 
 EDWARD HAMBERGER, PRESIDENT, ASSOCIATION OF AMERICAN RAILROADS

    Mr. Hixon. Mr. Chairman and members of the Subcommittee, my 
name is Jim Hixon. I am the Executive Vice President Law and 
Corporate Relations of the Norfolk Southern Corporation as well 
as a member of the Board of Trustees of the National Railroad 
Retirement Investment Trust. I am pleased to be here today and 
would like to thank the Subcommittee for giving me this 
opportunity to testify about the Trust's operational experience 
since its inception a few years ago.
    In December of 2001, years of collaboration between rail 
management, rail labor, and Congress resulted in the enactment 
of legislation forming the National Railroad Retirement 
Investment Trust, and on the day it was officially established, 
the $20 billion Trust fund became one of the largest pension 
investment trusts in the United States.
    This very successful collaboration has continued as we have 
worked to build this statutory concept into an actual 
institution, and the need for collaborative effort has been 
magnified because of the Trust's very unique status as a 
public-private partnership. As a result, transforming the Trust 
into an entity that could effectively and efficiently manage 
and invest railroad retirement assets for the benefit of 
beneficiaries has presented many challenges in the Trust's 
formative years.
    In the 41 days between enactment and the Trust's 
establishment date of February 1st, 2002, a labor-management 
implementation task force worked almost around the clock to 
create this new entity. The group included representatives of 
all major railroads and several railway labor unions and called 
on the expertise of a variety of senior executives from 
industry to provide advice on legal, investment, treasury 
functions, insurance, and human resources issues.
    The task force also met and coordinated closely with 
representatives of the Railroad Retirement Board on various 
start-up issues and ultimately provided recommendations 
regarding the outline of a basic organizational structure to be 
considered by the new Board of Trustees when it first convened.
    The National Railroad Retirement Investment Trust Board of 
Trustees met for the first time on February 1st, 2002, with 
participation of three appointees selected by rail management 
and three appointees selected by rail labor. Many of the 
initial challenges were organizational, including acceptance by 
the trustees of their positions and notification to the 
Railroad Retirement Board, selection of a chair, adoption of 
bylaws, retention of counsel, and the acquisition of insurance 
and bonding coverages.
    During the initial months, the Board approved and adopted 
internal policies on administrative issues including a 
conflicts of interest policy and a disclosure of investment 
information policy. The Board also was successful, after 
conducting two nationwide searches, in selecting a statutorily 
mandated independent trustee and hiring its first full time 
employee, the Chief Investment Officer.
    With these key individuals in place and the broad outline 
of an entity beginning to take shape, the Board began the 
process of developing an investment structure to enable the 
receipt and management of railroad retirement assets for 
investment. In doing so, the Board turned its attention to 
fundamental investment issues including the development of 
investment guidelines. As part of this process, the trustees 
and industry experts met with senior investment professionals 
from some of the country's largest corporate pension plans and 
Taft Hartley plans to explore a variety of investment and 
organizational issues.
    Among the advice received from these plans was the 
importance of hiring a dedicated staff, including specialized 
directors and advisors in various asset classes that would have 
the primary responsibility for making investment 
recommendations to the Board of Trustees rather than having the 
Board rely on outside investment advisors for such 
recommendations. My fellow trustee, Joel Parker will discuss 
these and other investment related issues in greater detail.
    Early on, the Board of Trustees evaluated proposals from 
all of the major accounting firms and selected Deloitte and 
Touche as its independent auditor.
    We also formed an Audit Committee to aid in the development 
of internal accounting procedures and administrative controls. 
The committee has continually reviewed key aspects of the 
Trust's auditing, financial reporting, internal accounting, and 
internal controls processes as it has grown, and through its 
relationship with the Trust staff and the Trust custodial bank 
and independent auditor, the committee has developed effective 
controls and reporting processes. As part of its ongoing review 
of new statutory and regulatory developments in the areas of 
internal accounting and controls contained in the Sarbanes 
Oxley Act and pronouncements by various regulatory agencies, 
the Audit Committee has also implemented various best practices 
recommendations appropriate for application to the Trust.
    Development of the Trust has also required a great deal of 
coordination with Federal Government Agencies, and the Trust 
has maintained regular communications with the Railroad 
Retirement Board and the Department of the Treasury. As a 
result of discussions with these agencies, the Trust became a 
party to a four way Memorandum of Understanding which outlines 
the budgetary, transfer, accounting, and financial reporting 
responsibilities with respect to assets held by the Trust and 
assets held within the Treasury for the Trust.
    Monthly Trust information reports submitted pursuant to the 
MOU, together with quarterly reports transmitted to the 
Congressional committees of jurisdiction and the annual 
management report that the Trust is required to submit to 
Congress and the Executive Branch have provided the means to 
communicate the status of Trust activities to interested 
parties.
    We have worked closely with the Railroad Retirement Board 
to develop a strong partnership while maintaining the 
investment independence mandated by Congress. We recognize that 
the Congressional rationale for this separation was rooted in 
the fact that, although the Trust is responsible for the 
management and investment of Federal Government assets, there 
was a concern about the implications of the Federal Government 
itself investing in and thereby influencing the financial 
markets. Thus, while the Trust was established by Federal 
statute and the reporting requirements and fiduciary standards 
applicable to it are set forth in the statute, Congress made 
clear that the Trust is not a department, agency or 
instrumentality of the Government of the United States.
    This unique status, as a non-Governmental entity that is 
responsible for the management and investment of Government 
assets, has presented some challenges in the Trust's first four 
plus years. Among those challenges has been coordinating the 
audit of the Trust's year-end financial statement with that of 
the Railroad Retirement Board so the Trust's audited statement 
can be included in the RRB's own financial statement and 
Statement of Social Insurance for eventual inclusion in the 
Financial Report of the United States Government.
    The Trust's unique status has also been recognized by the 
Internal Revenue Service, which has modified our IRS reporting 
requirements in light of the statutorily mandated annual 
management report. On a related matter, the Trust is preparing 
to submit a ruling request to the Service to clarify the 
application of other tax rules to the Trust.
    In addition, we have worked with Congress to secure various 
technical corrections to address issues not anticipated in the 
original legislation.
    Challenges like these are inevitable, given the quasi-
governmental nature of the Trust. However, they have been and 
will continue to be successfully resolved because of the 
continued cooperative relationship that exists between the 
Trust, the RRB, and other Government Agencies.
    Mr. Chairman, there are a number of ways to measure 
success, and in my opinion, the National Railroad Retirement 
Investment Trust has been a categorical success by any of 
these. A little over four years ago, six trustees were seeking 
a seventh trustee and the Trust's first employee. Just last 
month, the Trust's newly hired Chief Accounting Officer brought 
to 12 the number of full time professionals employed by the 
Trust. Trustees have transitioned on and off of the Board, but 
the spirit of cooperation that brought about railroad 
retirement reform is just as strong today as it was four years 
ago.
    On behalf of my fellow trustees, I again thank you for the 
opportunity to appear before you today and would be happy to 
respond to any questions you may have.
    Mr. LaTourette. Mr. Hixon, thank you very much.
    Mr. Parker, welcome, we look forward to hearing from you.
    Mr. Parker. Thank you. Good afternoon, Mr. Chairman and 
members of the Subcommittee. My name is Joel Parker. I am 
Special Assistant to the President and International Vice 
President of the Transportation Communications International 
Union, as well as an original member of the Board of Trustees 
of the National Railroad Retirement Investment Trust.
    I appreciate the opportunity to discuss with you the 
progress of the Trust. I will focus on the Trust's investment 
strategy and performance--good news.
    The Railroad Retirement and Survivors' Improvement Act of 
2001 has provided for the transfer of approximately $21 billion 
in railroad retirement system funds to the Trust for investment 
in a diversified portfolio similar to other large U.S. pension 
plans.
    As a first priority, the Trust conducted a detailed asset-
liability study of the railroad retirement system to assess the 
Trust's projected funding obligations and alternative 
approaches to asset allocation. Based on the asset-liability 
study, the Trust developed, and in August of 2002, adopted a 
set of investment guidelines. We recognized that it would not 
be possible to immediately diversify the Trust's assets into 
the full array of asset classes set forth in the guidelines. As 
a result, we adopted an initial strategy of placing the assets 
in indexed accounts in three broad classes: domestic equities, 
international equities, and fixed income.
    To answer the Chairman's question to the previous panel, 
the asset allocation, which we adopted then and still have 
today, was 45 percent in domestic equities of which 5 percent 
could go to private equity, 20 percent in international 
equities, and 35 percent in fixed income.
    Indexation allowed us to diversify the Trust's investment 
exposure quickly and cost effectively as we received railroad 
retirement system funds. With these arrangements in place at 
the end of Fiscal Year 2002, our first fiscal year, the process 
of moving railroad retirement system assets to the Trust and 
investing them could begin. Working with the Railroad 
Retirement Board and the Treasury Department, we developed a 
schedule for transferring railroad retirement system assets 
held by the Treasury over a period of approximately six months 
beginning late in Fiscal Year 2002. When the final scheduled 
transfer took place in mid-March of 2003, the Trust had 
received a total of $19.3 billion of railroad retirement system 
assets.
    During 2003, the Trust undertook a major planning process 
to develop a plan to move the investment portfolio beyond 
indexed only investments. In the course of this process, the 
Trust reviewed a variety of investment strategies and 
methodologies to determine how active management could add 
value to expected returns at reasonable levels of risk, and I 
emphasize the latter, the reasonable levels of risk.
    The product of this effort was an investment plan. The 
investment plan includes a target for the level of the Trust's 
diversification within each asset class between indexed and 
actively managed assets based on an assessment of the potential 
for active management to add value to expected returns at 
reasonable levels of risk.
    Investment performance for the Trust's major asset classes 
was positive for Fiscal Year 2003, our first full year of 
investment activity. The Trust achieved overall performance 
returns of 19.9 percent compared to the target index return of 
18.8 percent. In Fiscal Year 2003, the full year performance 
return resulted in an increase of $2.7 billion in the Trust-
managed portfolio.
    In U.S. equity, the Trust's goals are a portfolio that 
combines indexation and active management in order to achieve 
performance in excess of the market at reasonable levels of 
risk. Execution of the U.S. equity portion of our investment 
plan focused primarily on large cap enhanced indexation 
strategies whose performance tracks relatively closely with 
that of their benchmark index while adding modest value. In 
Fiscal Year 2004, the Trust hired active managers both in 
domestic large cap strategies and in large cap value 
strategies.
    For fixed income assets, the Trust hired three enhanced 
index bond managers. As in equity, these managers take small 
and carefully calculated deviations from the index portfolios, 
aiming to add modest performance over the index without 
incurring significant risk.
    In addition, under the investment guidelines and our 
investment plan, 5 percent of the overall Trust portfolio, 
which is funded from the 45 percent U.S. equity allocation, was 
designated for private equity investments. In Fiscal Year 2004, 
the first private equity commitments were made.
    Also during Fiscal year 2004, we performed another multi-
phased asset allocation study to reexamine assumptions about 
return and risk in different asset classes in order to see 
whether the Trust asset allocation policy should be updated to 
improve returns and portfolio diversification. As a result of 
this study, the trustees authorized the investment staff to 
examine strategies in three new asset classes: real estate, 
commodities, and hedge funds. Work continues in these areas, 
but no funds have yet been allocated to these asset classes.
    For the 12 months of Fiscal Year 2004, the investment 
return on all Trust-managed assets was 13.3 percent. This 
compared favorably with the Trust's composite benchmark which 
returned 12.7 percent. At the end of Fiscal Year 2004, assets 
overseen by NRRIT totaled $25 billion, and the total value of 
railroad retirement system assets, including those held in the 
RRB accounts at the Treasury, was $26.4 billion.
    During Fiscal Year 2005, continued diversification away 
from indexation in most major asset classes resulted in 
retaining 21 new managers during the fiscal year. At year end, 
and that is the last fiscal year, at the end of the last fiscal 
year, 34 percent of the Trust investments were actively managed 
by more than 40 investment managers.
    With respect to U.S. equities, the Trust focused primarily 
on active large cap strategies, adding managers in several 
segments of that asset class. During that year, we continued to 
manage our non-U.S. equity investments through investments in 
index funds, but during this period, we adopted the non-U.S. 
equity portion of our investment plan and we took steps to 
begin adding enhanced index strategy. We also continued moving 
beyond indexation in fixed income assets during Fiscal Year 
2005, and in private equity, the trustees approved investments 
in nine additional private equity limited partnerships.
    For Fiscal Year 2005, the investment return on Trust-
managed assets was 14.0 percent. This compared favorably with 
the composite benchmark which returned 13 percent. At fiscal 
year end, the net asset value of assets overseen by the Trust 
totaled $27.7 billion, and the total value of railroad 
retirement system assets, including those held at the Treasury, 
totaled $29 billion.
    In conclusion, from its inception in February, 2002, to 
September 30th, 2005, the Trust received $21.3 billion from the 
Treasury, and we have transferred $2.7 billion back to the 
Treasury. The net book value of funds received from the 
Treasury since inception, therefore, is $18.6 billion. Those 
assets were invested in a diversified multi-asset class 
portfolio in accordance with our investment policy. This 
diversification of assets has allowed the Trust's assets to 
grow significantly beyond their original book value. As of 
September 30th, 2005, the net asset value of the Trust-managed 
assets totaled $27.7 billion, representing an increase of $9.1 
billion above the net book value of assets transferred to the 
Trust for investment.
    At the end of the most recent quarter, March 31st, 2006, 
the net asset value of assets overseen by the Trust totaled 
$28.9 billion. The total value of railroad retirement system 
assets stood at $30.3 billion, about $10 billion more than the 
total value of assets held by the system at the time the Trust 
began. This $10 billion increase is net of an additional $3.2 
billion transferred from the Trust to the Treasury for benefit 
payments during this period.
    Mr. Chairman, we believe the Trust has provided the kind of 
value to the railroad retirement system and its beneficiaries 
that was envisioned by the authors of the legislation that 
created this new and unique structure. We appreciate that the 
early years have been good ones for the financial markets and 
the Trust. We also recognize that markets have their cycles. 
Our goal has been to establish a solid professional 
organization, to develop a prudent investment plan that 
provides for a broad diversification of assets, and to take 
steps to judicially implement this plan. We believe this three-
pronged approach will serve us well in strong markets and also 
help to maintain stability in more challenging times.
    Thank you very much.
    Mr. LaTourette. I thank you, Mr. Parker, very much.
    Mr. Scardelletti, welcome to you, and we look forward to 
hearing from you.
    Mr. Scardelletti. Thank you, Mr. Chairman.
    Mr. Chairman and Ranking Member, my name is Robert 
Scardelletti. I am the International President of the 
Transportation Communications International Union. I deeply 
appreciate the opportunity to appear before you today to 
discuss the National Railroad Retirement Investment Trust on 
behalf of rail labor.
    Mr. Chairman, I was part of the rail labor team that worked 
with rail management to develop the initial outlines of the 
proposal for improving the railroad retirement system that 
ultimately became the Railroad Retirement and Survivors' 
Improvement Act of 2001. While the measure was under 
consideration by Congress, I had the privilege of working with 
members of this Committee as you improved and perfected the 
proposal that rail labor and management brought to you. The 
record shows that these collaborations between labor and 
management and between the combined forces of labor, 
management, and forward-looking members of this Committee have 
borne fruit.
    First, the Act provided better railroad retirement benefits 
for rail workers, their dependents, and survivors. Surviving 
spouses of deceased retirees now inherit the full Tier II 
annuity of the retiree rather than no more than 50 percent of 
the annuity which was previously allowed under law. The age at 
which a worker with 30 years of service may retire was reduced 
from 62 to 60. And the vesting period for Tier I and Tier II 
benefits was cut in half from 10 to 5 years.
    Second, the financial security of the railroad retirement 
system has been strengthened. The total assets of the system 
now stand at $30.3 billion, about $10 billion more than when 
the Trust first began its investment activities in the Fall of 
2002, which is a 50 percent increase.
    Third, the cost of the system to employers and employees 
has declined. For calendar year 2006, the Tier II rate on 
employees is 4.4 percent, down from 4.9 percent prior to the 
Act, and the employer tax has dropped from 16.1 percent to 
12.6.
    The structure of the Trust has worked well. The balance of 
three labor and three management members of the Board of 
Trustees along with one independent trustee, has produced a 
cooperative team-oriented approach to meeting a common goal: 
protecting and growing the assets held by the Trust for the 
benefit of current and future railroad retirees and their 
dependents, spouses, and survivors. I am not aware of a single 
instance to date in which Trust decisions have been discussed 
or decided based on a labor or a management affiliation.
    The success to date of the Trust is testimony not only to 
the trustees and staff who are directly responsible for its 
operation but also to the leadership of this Committee and the 
Congress in passing the legislation in 2001. In addition, the 
cooperation and assistance of the Railroad Retirement Board has 
been vital to the start-up and smooth functioning of the Trust. 
Likewise, the Treasury Department has played a key role in 
developing new policies and procedures to facilitate the work 
of this unique organization and its special mission.
    One issue of concern to active workers and retirees, 
especially in light of the favorable position of the Trust 
Fund, is that future appropriations for the Railroad Retirement 
Board may not be adequate to maintain the level of service the 
railroad community expects and deserves. We would ask for your 
assistance in monitoring this situation.
    Mr. Chairman, we in the rail labor movement keep a close 
eye on the activities of the Trust. After all, our members have 
much to gain or lose from its success or failure. And so far, 
we are very satisfied with what we see.
    I appreciate the opportunity to speak to you on this 
important subject and would be pleased to answer any questions. 
Thank you.
    Mr. LaTourette. Thank you, Mr. Scardelletti.
    Mr. Hamberger, thank you for coming. We look forward to 
hearing from you.
    Mr. Hamberger. Mr. Chairman, thank you, Congresswoman, 
Brown, thank you for the opportunity to be here. I am last in 
the line here, so I will make five quick points.
    Point number one, thank you for your wisdom and leadership 
on this Committee, this Subcommittee, and Congress in general 
for enacting the Railroad Retirement and Survivors' Improvement 
Act of 2001. Now, you probably expected me to say that, but 
those are not empty words. I have a personal memory of a 
hearing scheduled September 17th, 1998, a mere two months after 
I got this job and the first time I was testifying before this 
Subcommittee. You can imagine how pleased I was that the first 
hearing was on the interaction of Tier I and Tier II, and 
widows' and survivors' benefits, and the supplemental annuity 
tax and how it interacted with the social security tax.
    Notwithstanding my apprehension, the hearing was a major 
success, and my counterpart at that time, Clarence Monin, I 
believe with the BLE, and I, under the urging of this 
Subcommittee, agreed that management and labor should sit down 
and see whether they could come up with an agreed upon 
approach.
    Just to give it further proof, a contemporaneous written 
statement, we put out a press release dated September 28th, in 
which the AAR thanked and applauded the Subcommittee for 
providing the catalyst for talks on railroad retirement reform. 
We hope to schedule meetings with rail labor in the very near 
future. We did schedule those meetings, and because of that 
hearing in September, 1998, we are able to hold this today, 
almost eight years later. If this could be submitted for the 
record, I would appreciate it.
    Second point, it shows how well management and labor can 
work together and when we do, how successful we can be. The 
personal respect I have for Mr. Scardelletti, Mr. Parker, and 
others in rail labor that was developed over this long fight 
still survives today, and I look at them as partners in many 
ways.
    Number three, clearly, the legislation has worked. You have 
heard about how well it has worked.
    Let me focus point number four on how well it has worked 
for the railroads. Over the course of the last four years, rail 
taxes on management have gone down by a total of $1.5 billion. 
We talked about this at the last hearing two weeks ago. What 
happened to that money? Well, we increased our spending on 
capital and maintenance over those same four years by $5.8 
billion; we hired 10,000 new employees since 2003; and we have 
dealt with a fuel situation where in 2001, the average price of 
diesel fuel was 85 cents a gallon, and as of March 31, 2006, it 
has more than doubled to $1.89. So we have taken that money and 
turned it back into the industry, and we continue to do that.
    As I testified two weeks ago, $8.3 billion is going to be 
spent on capital expenditures in 2006 alone, and just this 
week, two of our members, Burlington Northern Santa Fe and 
Union Pacific announced an additional $100 million to be spent 
over the next several years to triple track more than 40 miles 
of right of way into the Southern Powder River Basin. When we 
have the opportunity to invest, we take that opportunity.
    Number five, I will end as I began, thanking you for your 
leadership, this time for reporting out H.R. 5074 which would 
continue to have the Treasury be the dispersing agent for the 
railroad retirement checks. As you know, that is important for 
at least two reasons. One, it is much cheaper; I believe it is 
about $2 a check versus 18 cents a check, the cheaper coming 
out of the Department of the Treasury. And second, it means 
that we do not have to turn over massive amounts of personal 
information to an outside private vendor.
    So thank you for your work on railroad retirement reform 
and thank you for your work on H.R. 5074.
    Mr. LaTourette. Mr. Hamberger, thank you. I notice a theme 
between your testimony last time and this time. You always seem 
to have five points, and that makes it easier for those of us 
up here to follow.
    Thank you all for testifying today. I appreciate it very 
much.
    Mr. Hixon, just by way of education, I would be interested 
in knowing how the fund works and who selects the products in 
the portfolio? Whether it is the Board, or it is the fund 
managers, and I assume it is not the individual employee, but 
who makes the selection as to what stocks are in the portfolio 
of the Trust?
    Mr. Hixon. The selection of what is in the portfolio is 
made by the investment manager that the Trust has retained to 
make those decisions. We have a very stringent process where 
the employees of the Trust review various candidates for an 
investment opportunity they have. It is a very qualitative and 
quantitative process, a lot of due diligence. It takes about 
six months to make a choice. But once the staff recommends the 
investment manager to the Board, the Board must approve the 
investment manager, then that investment manager is the one 
that actually makes the investment decisions within the 
portfolio.
    Mr. LaTourette. How is that reviewed by the trustees? Does 
the fund manager then come and say, here is what we have done, 
and what do you all think, or no?
    Mr. Hixon. The trust staff actually has several visits a 
year with the investment managers, onsite visits, to review 
their performance. They have monthly reviews on their 
performance as well. They have investment guidelines they have 
to comply with. Then each year, the trustees actually get an 
in-depth annual review on their performance. Like the U.S. 
equity side, we get an annual review on what has happened with 
the investment managers on the U.S. equity side, a detailed 
review, and each month we get a review of the performance of 
each of our investment managers.
    Mr. LaTourette. Can you describe for us what safeguards are 
in place to prevent things like conflicts of interest, insider 
trading, things like that on behalf of the fund managers?
    Mr. Hixon. We have our custodian bank. Northern Trust has 
our investment guidelines, and they monitor the investments 
made by the investment managers. For example, we have set up a 
rule that the investment managers could not invest in railroad 
stocks, and after the way stocks of our industry have performed 
over the last couple years, several of them have bemoaned the 
fact that we restrict them from investing in railroads.
    But nevertheless, the custodian then reviews each of their 
investments to make sure they meet the criteria that we have 
set for that investment manager. In the event they have 
invested in any railroad or invested outside of what they were 
allowed to invest in, then we make them give up that 
investment.
    Mr. LaTourette. Also in your testimony, you mentioned that, 
given I guess we can call it the quasi-governmental nature of 
the Trust, some issues have been created with the IRS and other 
Agencies. Have those issues been resolved, or do you think that 
you are going to be coming to the Committee in the future for 
additional technical corrections?
    Mr. Hixon. I think a lot of those issues have been 
resolved. I think it was the nature of the start-up, where a 
lot of people didn't know what we were doing or how we were set 
up. I think over the last couple of years, we have been able to 
get that settled, and I think at this point we don't anticipate 
coming to the Committee with any other corrections, but as 
always if we see a need, we will come to you.
    Mr. LaTourette. Thank you.
    Mr. Parker, I just want to elaborate on part of your 
testimony. You mentioned in 2004 that three enhanced index bond 
managers were hired as well as managers for large cap 
strategies and domestic capitalization strategies. You also 
indicated that you are expanding the use of the fund manager 
for major asset classes. At this point, are most of the Trust 
assets managed primarily by outside managers, or do you still 
have a real strong in-house management as well?
    Mr. Parker. We don't have any in-house management. The 
staff selects managers. All the assets are externally managed. 
Maybe the confusion was that we indexed at first wholly, and we 
are gradually moving toward an active strategy depending on 
asset class. The amount of active management will vary across 
different asset classes based on the asset allocation plan.
    Mr. LaTourette. When the Trust makes or retains a new 
outside manager, who makes that selection, and can you just 
briefly describe for us how the selection process works?
    Mr. Parker. I think Jim, Mr. Hixon, went through it fairly 
well. We have a very rigorous review process conducted by our 
in-house staff. We don't have any external staff. We have 
external managers, but our staff is totally in-house. We have 
an open door policy that any manager can approach the staff. 
You don't have to jump through hoops.
    They will have a meeting, and then they will conduct a 
review that generally takes up to six months. That includes a 
winnowing process where the manager has to fit within our 
overall asset allocation strategy. So, if a manager approached 
us who was in a sector that we were not ready or prepared to go 
into, let us say large cap growth to just use an example, we 
wouldn't pursue that manager at that time, but we would put 
them on the shelf and look at them when we were ready because a 
diversification plan is very methodical. Our goal is to 
diversify, diversify, diversify, but very carefully, very 
prudently, very conservatively.
    The ultimate recommendation of the manager, to get back to 
your question, is made by the staff. They have to come to us, 
to the trustees, with their final recommendation. They present 
to us a very in-depth recommendation, a relative analysis of 
the manager versus all the other managers they looked at, a due 
diligence book that generally is a volume this thick, very 
thick, with all the interviews and analyses they have made of 
that particular manager.
    As Mr. Hixon said, that doesn't end it. There is a 
continual monitoring process of all the managers by the in-
house staff.
    Mr. LaTourette. Then in my last question for you, Mr. 
Parker, I just want to focus on the 5 percent private equity. 
Does that mean that the Trust is investing in IPOs?
    Mr. Parker. We are investing in limited partnerships, I 
want to say exclusively at this point. Well, with private 
equity, some of the private equities, the investment manager 
with a general partner who is doing the investments may be 
investing in IPOS and buyouts and things like that.
    Mr.Hixon. What we do is we look at the performance of their 
funds, and they take our contribution to those funds. Then they 
allocate them as they see fit, and we monitor their 
performance. Some of them may be doing it, but it is not 
something we get involved in. We are not involved in those 
decisions.
    Mr. LaTourette. So, just to be clear, you make the 
investments with the limited partnership. The limited 
partnership, as part of their work, may invest in an IPO, but 
you don't say we are going to invest in an IPO.
    Mr. Parker. That is correct.
    Mr. LaTourette. OK, so there is a step in between.
    Mr. Hamberger, I just want to ask you one question. There 
was some talk recently about Amtrak perhaps suggesting that 
they wanted to remove their employees from the railroad 
retirement system and place them into social security. I would 
just like to solicit your thoughts on whether that is a good 
idea or a bad idea.
    Mr. Hamberger. Bad idea.
    Mr. LaTourette. Right. Am I correct, to Mr. Parker and Mr. 
Hixon, it has been a while since I have seen the figures, but 
that Amtrak employee contributions and Amtrak contributions to 
the Trust are about 10 percent of receipts? Is that fair?
    Mr. Hixon. I think that is fair. It may be slightly less 
now but about that.
    Mr. LaTourette. About 10 percent, OK.
    Mr. Scardelletti, I asked Chairman Schwartz this question. 
We had sort of crunch, a financial crunch in 1983, I think 
after the passage of the bill, and in 2001 we saw additional 
retirements. Can you, from your standpoint, sort of give us the 
forecast based upon where you think employment is going and 
whether or not we are going to see an additional strain on the 
railroad retirement system as a result of the retirement of the 
baby boomers?
    Mr. Scardelletti. Well, I think, as the Board testified, 
the actuaries have gone through those numbers quite 
extensively, and all indications are the fund can handle all 
the people that are intending to retire without any problem. As 
far as the railroads hiring, of course, that is under their 
control, but as Mr. Hamberger just said, they have hired 10,000 
and they are talking about hiring a number of other people. So 
I think the fund is in excellent shape to handle the situation.
    Mr. LaTourette. We had a hearing a couple of weeks ago that 
Mr. Hamberger alluded to on rail capacity. Clearly, what came 
out of that hearing, at least in my mind, is that there are 
choke points and part of the choke points, some of it is 
infrastructure and some of it is train crews, quite frankly. 
Just for my own edification, if a railroad employee is retired, 
does he or she have the ability to come back and help alleviate 
some of that difficulty if all parties are willing, or does 
that screw up their ability to continue to receive retirement 
benefits?
    Mr. Scardelletti. No. Once you retire, you have to resign 
from the railroad when you retire, and once you get your 
pension, you are not allowed to work for your former employer.
    Mr. LaTourette. OK, thank you very much.
    Ms. Brown?
    Ms. Brown. Mr. Hamberger, you stated that the Act partially 
encouraged the retirement of a number of railroad workers, so 
that the industry had a significant increase in its hiring 
requirements. How many workers has the railroad industry hired 
since enactment of the Act, and how many would you say are the 
results of the Act directly?
    Mr. Hamberger. I really can't say how many are a result of 
the Act directly, but in my written testimony, we do have a 
chart that shows the number, if I can just refer you to that. I 
believe it was at 163,000 it looks like in 2001. We are now up 
to about 165,000. It fell from 2001 to 2003, hitting about 
153,000. So about 10,000 retirees over that two year period, 
and then between 2003 and 2005, rehiring those 10,000 plus 
about another 2,000.
    Ms. Brown. Mr. Scardelletti, I know that you are concerned 
for ensuring future appropriations for the Railroad Retirement 
Board, and I will be happy to send a letter with the Chairman 
to the Committee. Have you heard of any problems your members 
are experiencing with the retirement program, or is everything 
going real well, as you said, from the beginning?
    Mr. Scardelletti. Right now, I think it is going well, but 
the Railroad Retirement Board is considering cutting the number 
of field offices which then will be a problem. That is what we 
are talking about, and we think money should be allocated for 
that, to keep those offices there, so people have ready access 
like they have had forever. We would be very happy to provide 
the Committee with details on this. Rail labor would be happy 
to do that. I am sure our people have already discussed it, 
though, individually, but we will provide something in writing 
that goes right to the crux of what we are saying.
    Ms. Brown. That is pretty much it. You know everything is 
going very well, it seems, excellent performance and 
relationships with other pension plans. I guess just keep up 
the good work.
    Any other comments that you want to make to the Committee, 
Mr. Hixon?
    Mr. Hixon. No, but thank you for all your assistance.
    Ms. Brown. We don't usually have a Committee meeting this 
pleasant.
    Mr. LaTourette. Well, I thank the gentlelady very much, and 
I hope this is the first of many such happy meetings.
    I want to thank all of you for your testimony today. I 
think that, as we said with the first panel, a growth of 50 
percent, taking assets and increasing it by $10 billion in a 
short period of time is remarkable. Our counsel, Mr. Scammel, 
in commenting on your report at the close of 2005, said that if 
everything was as clear as that, the Federal Government would 
be running a lot better. So you certainly deserve 
congratulations on the good work that you are doing. I think 
maybe after the hearing, Ms. Brown and I would like to talk to 
you about managing our retirement portfolios as well.
    Again, thank you all for this excellent report. Thank you 
for coming today, and you go with our thanks.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8286.001
    
    [GRAPHIC] [TIFF OMITTED] T8286.002
    
    [GRAPHIC] [TIFF OMITTED] T8286.003
    
    [GRAPHIC] [TIFF OMITTED] T8286.004
    
    [GRAPHIC] [TIFF OMITTED] T8286.005
    
    [GRAPHIC] [TIFF OMITTED] T8286.006
    
    [GRAPHIC] [TIFF OMITTED] T8286.007
    
    [GRAPHIC] [TIFF OMITTED] T8286.008
    
    [GRAPHIC] [TIFF OMITTED] T8286.009
    
    [GRAPHIC] [TIFF OMITTED] T8286.010
    
    [GRAPHIC] [TIFF OMITTED] T8286.011
    
    [GRAPHIC] [TIFF OMITTED] T8286.012
    
    [GRAPHIC] [TIFF OMITTED] T8286.013
    
    [GRAPHIC] [TIFF OMITTED] T8286.014
    
    [GRAPHIC] [TIFF OMITTED] T8286.015
    
    [GRAPHIC] [TIFF OMITTED] T8286.016
    
    [GRAPHIC] [TIFF OMITTED] T8286.017
    
    [GRAPHIC] [TIFF OMITTED] T8286.018
    
    [GRAPHIC] [TIFF OMITTED] T8286.019
    
    [GRAPHIC] [TIFF OMITTED] T8286.020
    
    [GRAPHIC] [TIFF OMITTED] T8286.021
    
    [GRAPHIC] [TIFF OMITTED] T8286.022
    
    [GRAPHIC] [TIFF OMITTED] T8286.023
    
    [GRAPHIC] [TIFF OMITTED] T8286.024
    
    [GRAPHIC] [TIFF OMITTED] T8286.025
    
    [GRAPHIC] [TIFF OMITTED] T8286.026
    
    [GRAPHIC] [TIFF OMITTED] T8286.027
    
    [GRAPHIC] [TIFF OMITTED] T8286.028
    
    [GRAPHIC] [TIFF OMITTED] T8286.029
    
    [GRAPHIC] [TIFF OMITTED] T8286.030
    
    [GRAPHIC] [TIFF OMITTED] T8286.031
    
    [GRAPHIC] [TIFF OMITTED] T8286.032
    
    [GRAPHIC] [TIFF OMITTED] T8286.033
    
    [GRAPHIC] [TIFF OMITTED] T8286.034
    
    [GRAPHIC] [TIFF OMITTED] T8286.035
    
    [GRAPHIC] [TIFF OMITTED] T8286.036
    
    [GRAPHIC] [TIFF OMITTED] T8286.037
    
    [GRAPHIC] [TIFF OMITTED] T8286.038
    
    [GRAPHIC] [TIFF OMITTED] T8286.039
    
    [GRAPHIC] [TIFF OMITTED] T8286.040
    
    [GRAPHIC] [TIFF OMITTED] T8286.041
    
    [GRAPHIC] [TIFF OMITTED] T8286.042
    
    [GRAPHIC] [TIFF OMITTED] T8286.043
    
    [GRAPHIC] [TIFF OMITTED] T8286.044
    
    [GRAPHIC] [TIFF OMITTED] T8286.045
    
    [GRAPHIC] [TIFF OMITTED] T8286.046
    
    [GRAPHIC] [TIFF OMITTED] T8286.047
    
                                    

</pre></body></html>
